           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       ADMINISTRATIVE COSTS
          CLAIMED BY THE
       KENTUCKY DISABILITY
      DETERMINATION SERVICES

     February 2009   A-08-08-18059




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   February 20, 2009                                                         Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Inspector General

Subject: Administrative Costs Claimed by the Kentucky Disability Determination Services
        (A-08-08-18059)


        OBJECTIVE

        For our audit of Federal Fiscal Years (FFY) 2005 and 2006 administrative costs claimed
        by the Kentucky Disability Determination Services (KY-DDS), our objectives were to

             evaluate the Kentucky Cabinet for Health and Family Services’ (KY-CHFS) and
              KY-DDS’ internal controls over the accounting and reporting of administrative costs;
             determine whether costs claimed by KY-DDS were allowable and funds were
              properly drawn; and
             assess limited areas of the general security controls environment.

        BACKGROUND
        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by disability
        determination services (DDS) in each State or other responsible jurisdiction. Such
        determinations are required to be performed in accordance with Federal law and
        underlying regulations.1 Each DDS is responsible for determining claimants’ disabilities
        and assuring that adequate evidence is available to support its determinations. To
        make proper disability determinations, each DDS is authorized to purchase consultative
        examinations (CE) and medical evidence of record from the claimants’




        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Paul D. Barnes


physicians or other treating sources. SSA pays the DDS for 100 percent of allowable
reported expenditures up to its approved funding authorization, based on a
State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513).

KY-DDS, a division of KY-CHFS, is located in Frankfort, Kentucky, and its branch office
is located in Louisville, Kentucky. KY-CHFS maintains KY-DDS’ official accounting
records and prepares its Form SSA-4513. For additional background, scope and
methodology, see Appendix B.

RESULTS OF REVIEW
KY-CHFS’ and KY-DDS’ internal controls over the accounting and reporting of
administrative costs for FFYs 2005 and 2006 were generally effective to ensure costs
claimed were allowable and funds were properly drawn. However, we determined that
KY-DDS’ inventory controls were not sufficient. We also determined that KY-DDS’
general security controls and practices did not adequately protect claimant data or
ensure the ongoing security of personnel and property. In addition, KY-DDS’
Security Plan did not meet SSA requirements. Moreover, SSA policy for DDSs did not
always provide sufficient guidance.

INVENTORY CONTROLS NEEDED IMPROVEMENT

KY-DDS did not maintain accurate and complete inventory records of computer
equipment.

   We were unable to locate 26 (6.9 percent) of the 379 items randomly selected for
    review.2 While most of the 26 missing items were office furniture, 7 were computers.
    After our on-site inventory review, KY-DDS management advised us that they
    located one computer and found documentation indicating three others were
    surplused. However, KY-DDS management could not determine the status
    (location) of two computers. Additionally, while they believed the final missing
    computer had been surplused, they could not find evidence to verify this
    determination. We do not know whether any of these computers contained
    personally identifiable information (PII). However, KY-DDS told us they believed that
    if the computers ever contained PII, it would have been erased—as this is the DDS’
    customary practice when surplusing/disposing of computers.3




2
 Of the 379 inventory items reviewed, we could not verify 13 (5.1 percent) of 255 items at Frankfort and
13 (10.5 percent) of 124 items at Louisville.
3
 We notified SSA’s Atlanta Regional Office of the missing computer equipment. Within 24 hours of the
notification, the Regional Office informed KY-DDS to send a report of suspected loss of PII to the National
Computer Service Center, which they did.
Page 3 - Paul D. Barnes


     We also determined KY-DDS did not always (1) account for and record equipment
      SSA purchased, (2) accurately record the location of items, (3) remove items from
      the inventory report that had been sold or surplused, or (4) identify the source of
      funds used to purchase the equipment.

SSA policy indicates that DDSs are responsible for inventory of all equipment
acquired—whether purchased through SSA or the State.4 In addition, policy requires
that DDSs record the description; source of funds used in the purchase (State or
Federal); inventory or serial number; date purchased; and physical location, including
building address and room or floor location, for each inventory item.5 Policy also
requires that DDSs label equipment purchased with Federal trust funds to identify that it
was SSA-purchased.6 Because proper equipment accountability reduces the risk of
loss or theft, we recommend SSA instruct KY-DDS to establish adequate internal
controls over inventory to ensure that inventory records are reliable and maintained in
accordance with SSA policy.

GENERAL SECURITY CONTROLS WERE INSUFFICIENT

KY-DDS’ general security controls were insufficient, which increased the risk of
unauthorized access and loss of sensitive information and equipment. While KY-DDS
evaluated the Louisville office’s security controls and created a Corrective Action Plan
for weaknesses identified, it did not prepare a Risk Assessment Plan. In addition, the
Frankfort office’s general security controls needed improvement, and KY-DDS did not
prepare a Risk Assessment Plan for that office either.

SSA provides DDSs with mandatory standards for maintaining and safeguarding the
Agency’s systems and claimant data, along with discretionary standards for protecting
facilities and personnel.7 SSA also requires that DDS management prepare a
Risk Assessment Plan for any physical security guideline it cannot meet.8

Louisville Office’s Security Controls Were Not Adequate

Physical security controls at the building where the Louisville office is located did not
adequately protect or limit access to DDS space. The Louisville office is located on four
floors in a privately owned multi-tenant building.




4
    SSA, Policy Operations Manual System (POMS), DI 39530.020A.1.
5
    SSA, POMS, DI 39530.020B.1.
6
    SSA, POMS, DI 39530.020B.2.
7
    SSA, POMS, DI 39567.001, 010 - 100, 315, 320, 325, and 340.
8
    SSA, POMS, DI 39567.155.C.
Page 4 - Paul D. Barnes


The building was not protected with 24-hour security guard service and the building did
not have an intrusion detection system (IDS).9 Additionally, the perimeter walls were
not made of slab-to-slab construction,10 several perimeter doors did not have peepholes
or non-rising/spot-welded hinges,11 and several utility boxes were not locked or
secured.12 The computer room walls were not constructed to prevent unauthorized
entry. For example, the walls were not slab-to-slab construction and did not have a
chain link fence, heavy wire mesh, or motion sensor devices in the space between the
false ceiling and the true ceiling.13 Furthermore, an elevator on one floor opened
directly into KY-DDS’ area. KY-DDS positioned a security guard at the elevator to
prevent unauthorized access during business hours, and KY-DDS management told us
they provided a stand-in for the guard when needed. Yet, during a site visit, we noted
that the security guard had stepped away from his post, but no alternate took his place.

KY-DDS’ access controls at the Louisville office were also inadequate because the DDS
did not change door codes when staff with knowledge of the codes left or no longer
needed to know them.14 In addition, KY-DDS did not adequately protect or limit access
to claimant data at the Louisville office because it had not implemented a clean desk
policy and secured claimant records.15 As such, contracted personnel who cleaned the
office during non-business hours had access to sensitive areas and data.

As of our last visit, the Louisville office had not implemented the security measures
previously mentioned. KY-DDS recognized these limitations in its 2006 and
2008 security reviews and stated in each year’s Corrective Action Plan that they were
“reviewing the practice” or “considering a change.” However, KY-DDS has taken no
action to reduce or eliminate these vulnerabilities and did not prepare a
Risk Assessment Plan that addressed these issues. In fact, KY-DDS management told
us they were unclear on SSA policy concerning the Risk Assessment Plan.

We recommend that SSA and KY-DDS timely reduce or eliminate the physical security
issues identified at the Louisville office. Furthermore, SSA should instruct KY-DDS to
implement a clean desk policy and ensure that all door codes are changed when staff
with knowledge of the codes leave or no longer have a need to know the codes. We
also recommend SSA work with KY-DDS to develop a Risk Assessment Plan for the
Louisville office.


9
    SSA, POMS, DI 39567.020E.
10
     SSA, POMS, DI 39567.015C.
11
     SSA, POMS, DI 39567.015A.
12
     SSA, POMS, DI 39567.015F.
13
     SSA, POMS, DI 39567.020G.5.
14
     SSA, POMS, DI 39567.040.B.
15
     SSA, POMS, DI 39567.020A and DI 39567.040C.
Page 5 - Paul D. Barnes


Frankfort Office’s Security Controls Needed Improvement

Because KY-DDS uses an IDS and guard services at the Frankfort office, we believe
that the office’s overall security controls were generally adequate. However, we found
some controls that needed improvement. SSA policy requires that DDSs adequately
safeguard systems, claimant information, and facilities to prevent unauthorized entry,
access, or disclosure. We found the following conditions at the Frankfort office.

     Although KY-DDS installed an IDS at this facility in June 2007, management had not
      scheduled any testing. SSA’s DDS internal office security guidelines instruct DDSs
      to test IDSs semiannually to ensure all sensors are working properly.16
     KY-DDS kept its undistributed keys in an unlocked file in the Commissioner’s staff
      area. SSA’s internal office security guidelines direct DDSs to limit possession of
      office keys to management or individuals who must have them.17
     KY-DDS’ computer room did not have slab-to-slab construction to prevent
      unauthorized entry, and the DDS did not use an alternate measure, such as
      installing chain link fences, heavy wire mesh, or motion sensor devices in the space
      between the facility’s false ceiling and the true ceiling.18
     Three utility boxes were unlocked. SSA’s perimeter office security guidelines
      instruct DDSs to keep utility boxes locked to prevent tampering.19
     The DDS had not tested its uninterruptible power supply (UPS). Without testing its
      UPS, KY-DDS could not ensure power would be adequate for orderly shutdown.20
     Management was unclear on policy regarding the Risk Assessment Plan and had
      not prepared one for the Frankfort office.

We discussed these security control issues with KY-DDS management, who generally
agreed to correct each. However, KY-DDS management stated that it would be costly
for the building owner to raise the wall in the computer room. We recommend SSA
work with KY-DDS to ensure the above security control issues are addressed and
develop a Risk Assessment Plan for the Frankfort office.




16
     SSA, POMS, DI 39567.020E.1.
17
     SSA, POMS, DI 39567.040A.
18
     SSA, POMS, DI 39567.020G.5.
19
     SSA, POMS, DI 39567.015F.
20
  U.S. Government Accountability Office’s (formerly known as the General Accounting Office)
Federal Information System Controls Audit Manual, GAO/AIMD-12.19.6, p. 130 January 1999.
Page 6 - Paul D. Barnes


SECURITY PLAN NOT ADEQUATE

KY-DDS’ Security Plan for Frankfort and Louisville did not adequately meet SSA
requirements. In addition, the Security Plan only contained six of the eight required
parts, and these parts did not include all the required elements.21 Parts D (Systems
Review/Recertification Plan [Technical Security]) and H (Risk Assessment/Exceptions)
were missing from the Security Plan. Part A (Physical Security DDS Description/Profile)
did not disclose the size of the office,22 and Part G (Disaster Recovery Plan) did not cite
the local resources needed to operate in the event of a disaster.23 After discussing the
Security Plan’s missing parts and elements, KY-DDS management stated they will
revise the Security Plan. We recommend SSA ensure KY-DDS submits a revised
Security Plan that meets the Agency’s requirements.

DISABILITY DETERMINATION SERVICES’ RESPONSIBILITY OVER EQUIPMENT
RENTALS

Because the contract was between the Commonwealth of Kentucky and the vendor,
KY-CHFS believed SSA was not a party to the equipment rental agreement. However,
SSA funds were used for these expenditures. In addition, KY-DDS management told us
they were unclear with regard to their responsibility over rental equipment.

We recommend that the Atlanta Regional Office work with SSA’s Office of Disability
Determinations to review policy concerning SSA-funded rental equipment and revise it,
where necessary, to provide specific guidance on DDS responsibilities. In addition, it is
essential that this guidance specify whether DDSs should retain documentation
regarding SSA approval, and if so, the retention period. Currently, State agencies are
required to retain financial records and supporting documents pertinent to disability
determinations for 3 years or until a Federal audit has been performed and all findings
resolved.24 We believe the Agency should consider a similar retention period.

DISABILITY DETERMINATION SERVICES’ RESPONSIBILITY OVER EMPLOYEE
TRAVEL

While policy requires that DDSs obtain SSA Regional Office approval before staff
travels to National Association of Disability Examiners (NADE) meetings,25 KY-DDS was
unable to provide documentation that supported SSA’s approval for staff traveling to a
NADE meeting. KY-DDS management and SSA’s Disability Program Administrator
agreed prior approval was obtained. However, no documentation was retained. We

21
     SSA, POMS, DI 39567.160B.
22
     SSA, POMS, DI 39567.165.2.
23
     SSA, POMS, DI 39567.195D.
24
     SSA, POMS, DI 39509.005C.1.
25
     SSA, POMS, DI 39524.001C.2.
Page 7 - Paul D. Barnes


recommend that the Atlanta Regional Office work with SSA’s Office of Disability
Determinations to clarify in policy whether documentation should be retained regarding
SSA approval, and if so, the retention period for these approvals.

POLICY SILENT ON DISABILITY DETERMINATION SERVICES VERIFYING THAT
MEDICAL CONSULTANTS HAVE NOT BEEN SANCTIONED

SSA policy does not require that DDSs review the U.S. Department of Health and
Human Services, Office of Inspector General, List of Excluded Individuals/Entities to
ensure medical consultants are not included on the list. This list identifies individuals
and entities that are sanctioned from participating in any Federal or federally assisted
program. We believe DDSs should be required to consult this list before retaining the
services of all medical consultants. Therefore, we recommend the Atlanta Regional
Office work with SSA’s Office of Disability Determinations to establish such a policy.

CONCLUSION AND RECOMMENDATIONS
KY-CHFS and KY-DDS generally had effective controls over the accounting and
reporting of administrative costs for FFYs 2005 and 2006. However, our review of
KY-DDS’ controls over physical security and inventory disclosed that the DDS could be
vulnerable to unauthorized access and loss of sensitive information and equipment. In
addition, KY-DDS did not have an adequate Security Plan. Furthermore, we found SSA
needed to enhance its guidance to DDSs.

We recommend SSA’s Atlanta Regional Office:

1. Instruct KY-DDS to establish adequate internal controls over inventory to ensure that
   inventory records are reliable and maintained in accordance with SSA policy.
2. Work with KY-DDS to timely reduce or eliminate the Louisville office’s physical
   security control weaknesses.
3. Instruct KY-DDS to change door codes at the Louisville office when staff with
   knowledge of the codes leave or no longer have a need to know them.
4. Instruct KY-DDS to implement a clean desk policy at the Louisville office.
5. Instruct KY-DDS to test the Frankfort office’s IDS semiannually.
6. Instruct KY-DDS to keep the Frankfort office’s undistributed keys in a locked drawer
   or cabinet.
7. Work with KY-DDS to enhance security controls for the Frankfort office’s computer
   room and utility boxes.
8. Instruct KY-DDS to routinely test the Frankfort office’s UPS.
9. Ensure KY-DDS establishes a Security Plan, which meets SSA requirements, for the
   Frankfort and Louisville offices—this includes developing Risk Assessment Plans for
   each office’s physical security vulnerabilities.
Page 8 - Paul D. Barnes


We also recommend the Atlanta Regional Office work with SSA’s Office of Disability
Determinations to:

10. Revise and/or clarify policy regarding DDS responsibility in obtaining prior approvals
    and document retention for equipment rentals.
11. Revise and/or clarify policy regarding DDS responsibility in obtaining prior approvals
    and document retention for DDS staff travel to NADE conferences.
12. Establish policy that requires DDSs to review U.S. Department of Health and Human
    Services, Office of Inspector General, List of Excluded Individuals/Entities to
    determine whether medical consultants have been sanctioned from participating in
    any Federal or federally assisted program.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. We appreciate that the Regional Office
provided guidance to the DDS for Recommendations 10 through 12; however, we
believe the region needs to work with SSA’s Office of Disability Determinations to
“document” these policies so all DDSs will be held to the same standards. The full text
of SSA’s and KY-CHFS’ comments are included in Appendices D and E.

OTHER MATTER
CLAIMANTS’ PERSONALLY IDENTIFIABLE INFORMATION DISCLOSED TO THIRD
PARTIES WHO MAY NOT NEED TO KNOW

KY-DDS routinely disclosed disability claimants’ PII to vendors. During the disability
determination process, KY-DDS purchases services that include medical evidence (CE
and medical evidence of record) and claimant travel. Our review of medical and
applicant travel invoices revealed that these documents contained PII including names,
addresses, dates of birth, Social Security numbers (SSN), and telephone numbers.
Although we have no reason to believe this information had been abused, this practice
potentially could result in the misuse of claimants’ PII.

Federal guidance dictates that agencies should reduce their current holdings of all PII to
the minimum necessary for the proper performance of a documented agency function.26
Agencies must also review their use of SSNs in agency systems and programs to
identify instances in which collection and use of the SSN is superfluous.27



26
  Office of Management and Budget (OMB) Memorandum M-07-16, Attachment 1 § B.1.a. This
Memorandum (page 2) also indicates a few simple and cost-effective steps to greatly reduce the risks
related to a data breach of PII, such as limiting access to only those individuals who must have such
access. Access is defined as the ability or opportunity to gain knowledge of PII.
27
     OMB Memorandum M-07-16, Attachment 1 § B.2.a.
Page 9 - Paul D. Barnes


On October 5, 2007, SSA’s Office of Disability Determinations informed Regional
Offices that DDSs should review their processes to eliminate the use of SSNs on
correspondence where possible. Given the prevalence of identity theft, we encourage
KY-CHFS and KY-DDS to take steps to limit the disclosure of PII (in particular, redact or
truncate claimants’ SSNs) in all third-party correspondence.



                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Schedule of Total Costs Reported on Form SSA-4513—State Agency
             Report of Obligations for Social Security Administration Disability
             Programs
APPENDIX D – Agency Comments

APPENDIX E – Kentucky Cabinet for Health and Family Services Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act        Social Security Act
C.F.R.     Code of Federal Regulations
CE         Consultative Examination
DDS        Disability Determination Services
DI         Disability Insurance
FFY        Federal Fiscal Year
IDS        Intrusion Detection System
KY-CHFS    Kentucky Cabinet for Health and Family Services
KY-DDS     Kentucky Disability Determination Services
NADE       National Association of Disability Examiners
OMB        Office of Management and Budget
OIG        Office of the Inspector General
PII        Personally Identifiable Information
POMS       Policy Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
SSN        Social Security Number
UPS        Uninterruptible Power Source

FORM

SSA-4513   State Agency Report of Obligations for SSA Disability Programs
                                                                          Appendix B

Background, Scope and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, and/or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico, and the District of Columbia.
Such determinations are required to be performed in accordance with Federal law and
underlying regulations.1 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring that adequate evidence is available to
support its determinations. To assist in making proper disability determinations, each
DDS is authorized to purchase medical examinations, X-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations2 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990.3 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the Federal Fiscal Year
(FFY), each DDS submits a State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) to account for program disbursements and unliquidated
obligations.




1
    42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Pub.L. No. 101-453.


                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Kentucky Disability
Determination Services (KY-DDS) reported on its Form SSA-4513 for FFYs 2005 and
2006. For the periods reviewed, we obtained evidence to evaluate recorded financial
transactions and determine whether they were allowable under OMB Circular A-87 and
appropriate, as defined by SSA’s Program Operations Manual System (POMS).

We also:

   Reviewed applicable Federal laws, regulations and pertinent parts of POMS
    DI 39500, DDS Fiscal and Administrative Management, and other instructions
    pertaining to administrative costs incurred by KY-DDS and draw down of SSA funds.
   Interviewed Kentucky Cabinet for Health and Family Services and KY-DDS staff and
    corresponded with SSA Regional Office personnel.
   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
   Verified the reconciliation of official State accounting records to the administrative
    costs reported by KY-DDS on Form SSA-4513 for FFYs 2005 and 2006.
   Examined the administrative expenditures (personnel, medical service, and all other
    non-personnel costs) incurred and claimed by KY-DDS for FFYs 2005 and 2006 on
    Form SSA-4513.
   Examined the indirect costs claimed by KY-DDS for FFYs 2005 and 2006 and the
    corresponding Indirect Cost Rate Agreements.
   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Form SSA-4513.
   Reviewed the State of Kentucky Single Audit reports issued in 2005 and 2006.
   Conducted limited general control testing—which encompassed reviewing the
    physical access security in the DDS.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Form SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the KY-DDS in Frankfort and Louisville, Kentucky, and the
Office of Audit in Birmingham, Alabama, from March through September 2008. We
conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.


                                             B-2
METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other non-personnel
costs. We obtained computerized data from KY-DDS for FFYs 2005 and 2006 for use
in statistical sampling. Also, we reviewed general security controls the DDS had in
place.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FFY 2006. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure KY-DDS correctly paid employees
and adequately documented these payments.

We reviewed all 39 medical consultants’ costs from 1 randomly selected pay period in
FFY 2006. We determined whether sampled costs were reimbursed properly and
ensured the selected medical consultants were licensed.

Medical Costs

We sampled a total of 100 medical evidence of records and consultative examination
records (50 items from each FFY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed KY-DDS in
compliance with the approved Indirect Cost Rate Agreement. We analyzed the
approved rate used, ensuring the indirect cost rate changed when the Indirect Cost
Rate Agreement was modified. We reviewed the documentation and traced the base
amounts to Form SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, fixed, or
final rate.




                                          B-3
All Other Non-Personnel Costs

We stratified all other non-personnel costs into nine categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance, (4) Equipment
Purchases and Rental, (5) Communications, (6) Applicant Travel, (7) DDS Travel,
(8) Supplies, and (9) Miscellaneous. We selected a stratified random sample of
50 items from each FFY based on the percentage of costs in each category (excluding
the rent portion of Occupancy) to total costs. We also performed a 100 percent review
of the rent portion of Occupancy expenditures.

General Security Controls

We conducted limited general security control testing. Specifically we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined whether the general security controls the DDS had in place were
satisfactory.

INVENTORY

We reviewed 25 percent of KY-DDS’ inventory items. We used KY-DDS’ current listing
of equipment purchased to randomly select our sample items. We selected 255 items
for Frankfort and 124 for Louisville. For each sample item, we determined whether the
item was currently at the location listed or KY-DDS had disposal documentation to
support its prior existence.




                                          B-4
                                                      Appendix C

Schedule of Total Costs Reported on Form SSA-
4513—State Agency Report of Obligations for Social
Security Administration Disability Programs
             Kentucky Disability Determination Services

         FEDERAL FISCAL YEARS (FFY) 2005 and 2006 COMBINED
                                    UNLIQUIDATED        TOTAL
 REPORTING ITEMS   DISBURSEMENTS    OBLIGATIONS      OBLIGATIONS
Personnel            $47,639,421           $0        $47,639,421
Medical               18,838,195       10,100         18,848,295
Indirect               4,460,903            0          4,460,903
All Other              9,196,399      127,926          9,324,325
TOTAL                $80,134,918     $138,026        $80,272,944

                              FFY 2005
                                    UNLIQUIDATED        TOTAL
 REPORTING ITEMS   DISBURSEMENTS    OBLIGATIONS      OBLIGATIONS
Personnel            $23,601,423          $0         $23,601,423
Medical                9,305,310           0           9,305,310
Indirect               2,291,485           0           2,291,485
All Other              5,119,460           0           5,119,460
TOTAL                $40,317,678          $0         $40,317,678
                              FFY 2006
                                    UNLIQUIDATED        TOTAL
 REPORTING ITEMS   DISBURSEMENTS    OBLIGATIONS      OBLIGATIONS
Personnel            $24,037,998           $0        $24,037,998
Medical                9,532,885       10,100          9,542,985
Indirect               2,169,418            0          2,169,418
All Other              4,076,939      127,926          4,204,865
TOTAL                $39,817,240     $138,026        $39,955,266
                  Appendix D

Agency Comments
                              SOCIAL SECURITY

                                                  Refer To: J. Irwin 2-1407

MEMORANDUM

Date:    January 16, 2008

To:     Inspector General

From:   Regional Commissioner
        Atlanta

Subject: Administrative Costs Claimed by the Kentucky Disability
         Determinations Services (A-08-08-18059)

Thank you for the opportunity to comment on the findings and the
recommendations presented in your draft report of the Kentucky Disability
Determinations Services (KY DDS). We believe that the Office of Inspector
General (OIG) Audit regarding internal controls over the accounting and reporting
of administrative costs, the proper drawdown of funds, the accuracy of costs
claimed, and the assessment of the KY DDS’ limited areas of general security
controls environment , was detailed and thorough.

Specifically, our comments on the twelve recommendations are as follows:

1. Instruct KY-DDS to establish adequate internal controls over inventory to
   ensure that inventory records are reliable and maintained in accordance with
   SSA policy.

We agree with the recommendation. KY has taken action to resolve this issue.
During the OIG audit, the KY DDS was not able to locate seven items identified
as computer equipment that may contain Personally Identifiable Information (PII).
The seven items were initially believed to consist of three servers, three
workstations and one laptop computer. A PII report was made 12/4/08 to the
NCSC based on an example provided to the DDS by OIG from a similar review
(CAPRS # 740977). After a records search, the DDS was able to locate
inventory records for all but two of the computers; however, DDS review
indicates that it is highly unlikely that any PII was actually compromised.
The KY DDS stated that a process has been implemented to ensure that internal
controls over inventory are reliable and maintained in accordance with SSA
policy. The KY DDS met with Parent Agency representatives to develop a
process that would improve inventory controls. The Parent Agency has given the
DDS more direct control over inventory management. In December, 2008, the


                                       D-1
DDS created a team of six employees, led by an Inventory Delegated Authority,
who will manage all DDS inventory. These six employees have each completed
two state sponsored training classes on the state accounting system (eMars).
The team is in the process of tagging and entering all of the KY DDS’ fixed
assets into eMars. No further action is required.


2. Work with KY DDS to timely reduce or eliminate the Louisville office’s
   physical security control weaknesses.
We agree with this recommendation. KY has been provided clarification on
SSA‘s physical security policy for preparing Risk Assessment Plans for all
offices. Most of the information for the KY DDS Security Plan exists; however, it
had not been put into the most current format. The KY DDS Security Officer is
reviewing current security plans to ensure that they meet SSA’s requirement, this
action will be completed before March 31, 2009.
 KY has requested funding for the security equipment that will address the
Louisville Office’s physical security control weaknesses cited in the OIG report.
The Region has approved the request and forwarded it to the Office of Disability
Determinations (ODD) for review and funding. The request includes a door
access system for the entire office, an intrusion detection system (IDS), security
cameras, and partition walls and doors. The total cost of the project is estimated
to be $35,875. We will continue to work with KY until the project is completed.

3. Instruct KY DDS to change door codes at the Louisville office when staff
   with knowledge of the codes leaves or no longer has the need to know
   them.
We agree with this recommendation. In January 2008, Kentucky implemented a
policy to change door codes every quarter or sooner if an employee leaves the
DDS. The Louisville office manager will ensure that action is taken to change the
door codes quarterly and/or when someone leaves the Louisville office. Funding
has been requested and, forwarded to ODD, to make changes to have a badge
access system on all doors. We will continue to work with the DDS until the
badge access system is completed.
4. Instruct the KY DDS to implement a clean desk policy at the Louisville
   office.
We agree with this recommendation. The KY DDS has already implemented a
clean desk policy at the Frankfort and Louisville offices. No further action is
necessary.
5. Instruct KY DDS to test the Frankfort offices IDS semi-annually.
We agree with this recommendation. KY DDS has already implemented a policy
to have office IDS equipment tested semi-annually. On January 12, 2009, a
representative from the KY DDS’ security vendor performed a test of all IDS



                                       D-2
equipment in the Frankfort office. This will be performed semi-annually as
recommended by OIG. No further action is necessary.

6. Instruct the KY DDS to keep the Frankfort office’s undistributed keys in
   a locked drawer or cabinet.
We agree with this recommendation. The KY DDS has already implemented a
policy to keep undistributed keys secure. The DDS has organized all of the
undistributed keys and they are now kept in a locked cabinet in the Building
Manager’s office. The Building Manager’s office is locked when it is not
occupied. No further action is necessary.

7. Work with the KY DDS to enhance security controls for the Frankfort
   office’s computer room and utility boxes.
We agree with this recommendation. KY has already taken action to secure the
Frankfort computer room and utility boxes. The DDS has requested funding for
the installation of motion detectors for the Frankfort computer room. The DDS
has also contacted the building owner and the Parent Agency facilities personnel
to inquire about having a chain-link fence installed around the utility boxes in the
mailroom. We will continue to work with the DDS until the motion detector and a
chain-link fence are installed in Frankfort.

8. Instruct the KY DDS to routinely test the Frankfort office’s
   uninterruptible power supply
We agree with this recommendation. KY has already implemented a policy to
routinely test the Frankfort Office’s uninterruptible power supply. The DDS has
made arrangements to test the computer room UPS before the end of the first
quarter of calendar year 2009. Plans are to perform the test once a quarter. No
further action is necessary.

9. Ensure KY DDS establishes a Security Plan, which meets SSA
   requirements, for the Frankfort and Louisville offices—this includes
   developing Risk Assessment Plan’s for each office’s physical security
   vulnerabilities.
We agree with this recommendation. KY has recently updated security plans in
place for both Frankfort and Louisville offices. DDS management have been
reminded to develop risk assessments of their facilities (location, crime rate,
current security level, etc.), and they will comply. The KY DDS Security Officer is
currently reviewing the security plans for both the Frankfort and Louisville offices
to ensure that the plans meet SSA’s requirements. The review will be completed
before March 31, 2009. The DDS and SSA will continue to monitor these plans to
ensure compliance.




                                        D-3
10. Revise and/or clarify policy regarding DDS responsibility in obtaining
    prior approvals and document retention for equipment rentals.
We agree with this recommendation. SSA has provided policy clarification to KY
and the DDS will continue to follow SSA requirements to obtain prior approvals
and retain proper document retention for equipment rentals. No further action is
necessary.
11. Revise and/or clarify policy regarding DDS responsibility in obtaining
    prior approvals and document retention for DDS staff travel to NADE
    conferences.
POM policy is very clear on this issue; approval for DDS staff travel to NADE
conferences must be obtained prior to travel. The KY DDS has always followed
SSA’s policy for obtaining approval; however, the DDS was unable to locate
documentation of approvals. SSA discussed travel policy and document
retention with Kentucky and they will comply. No further action is necessary.
12. Establish policy that requires DDSs to review U.S. Department of Health
    and Human Services, Office of Inspector General, List of Excluded
    Individuals/Entities to determine whether medical consultants have
    been sanctioned from participating in any Federal or Federally-assisted
    program.
We agree with this recommendation. The DDS already has this policy in place.
A DDS employee is already designated to complete this task. The employee
prints the information off the OIG website and highlights the vendors for KY and
the surrounding states; then checks the DDS Vendor File to see if the vendors
identified/performed consultative exams or if they are a MER vendor. If any
problems are identified, then the problem is taken to the person who maintains
the vendor file to take appropriate action to remove the vendor. No further action
is necessary.
Also, we believe KY-DDS should take steps to exclude the SSN from
documents it sends to third parties.

We agree with this recommendation. The KY DDS implemented the policy to
remove SSNs from documents sent to third parties in November, 2007. No
further action is necessary.

Please direct any questions you may have to Josie Irwin at (404) 562-1407.


                                         Paul D. Barnes

cc:    Stephen C. Jones
       Josie Irwin




                                       D-4
                                    Appendix E

Kentucky Cabinet for Health and Family
Services Comments
                                   CABINET FOR HEALTH AND FAMILY SERVICES
                                     DEPARTMENT FOR INCOME SUPPORT
                                                   PO Box 1000
Steven L. Beshear                               Frankfort, KY 40602
                                                                                                      Janie Miller
Governor                                          (502) 564-5028                                        Secretary
                                                Fax: (502) 564-5035
                                                  www.chfs.ky.gov


                                              January 23, 2009


        Ms. Kimberly Byrd
        Director
        Social Security Administration
        Office of the Inspector General
        Atlanta Audit Division – Birmingham
        Office of Audit
        1200 8th Avenue North, 8th floor
        Birmingham, AL. 35285

        Dear Ms. Byrd:

               We appreciate the work that the Social Security Administration, Office of the Inspector
        General, did in auditing the fiscal reporting and security controls of the Kentucky Cabinet for
        Health and Family Services. We also appreciate the opportunity to comment on the findings and
        the recommendations presented in your report of the Kentucky Disability Determinations
        Services (KY DDS).

                The Kentucky Cabinet for Health and Family Services is committed to following the
        policies and regulations of the Social Security Administration. As noted in our response, we
        agree with all of your findings and in most cases we have already put plans into place to
        improve our controls.

               Attached you will find our response to your findings. If you should have any questions
        about our responses, please do not hesitate to call DDS Commissioner Stephen Jones at 502-
        564-5028 or my office at 502-564-7042.

                                                    Sincerely,


                                                    Janie Miller
                                                    Secretary

        cc:   Patrick P. O’Carroll, Jr
              SSA Inspector General

              Stephen Jones
              Commissioner, Department for Income Support




KentuckyUnbridledSpirit.com                                                      An Equal Opportunity Employer M/F/D
                                                      E-1
1) Instruct the Kentucky Disability Determination Services (KY DDS) to establish
adequate internal controls over inventory to ensure that inventory records are reliable
and maintained in accordance with Social Security Administration (SSA) policy.

We agree with the recommendation. After a records search, the KY DDS was able to locate
inventory records for all but two of the computers. KY DDS review indicated that it is highly
unlikely that any Personally Identifiable Information (PII) was actually compromised.

The KY DDS has implemented a new inventory control process to ensure that internal controls
over inventory are reliable and maintained in accordance with SSA policy. The KY DDS has met
with Cabinet for Health and Family Services (CHFS) inventory employees to develop a process
that will improve inventory controls. The DDS has been given more direct control over inventory
management. In December 2008, the KY DDS created a team of 6 employees, led by an
Inventory Delegated Authority, who will manage all KY DDS inventory. These 6 employees
have each completed 2 state sponsored training classes on the state accounting system
(eMars). The team is in the process of tagging and entering into eMars, all of the KY DDS’s
fixed assets.


2) Work with KY DDS to timely reduce or eliminate the Louisville branch office’s physical
security control weaknesses.

We agree with this recommendation. We have been provided with clarification on the SSA
physical security policy for preparing Risk Assessment Plans for all offices. Most of the
information for the KY DDS Security Plan exists; however, it had not been put into the most
current format. The KY DDS Security Officer is reviewing current Security Plans to ensure that
they meet SSA’s requirement, this action will be completed before March 31, 2009.

We have requested funding for security equipment that will address the Louisville DDS branch
office’s physical security control weaknesses cited in the Office of the Inspector Generals (OIG)
report. Josie Irwin, the Kentucky Disability Program Administrator (DPA) has informed us that
the Atlanta Region has approved the request and forwarded it to the Office for Disability (OD)
for review and funding. The request includes a door access system for the entire office, an
intrusion detection system, security cameras, and partition walls and doors. The total cost of
the project is estimated to be $35,875.

The KY DDS has instituted a clean-desk policy in the Louisville and Frankfort offices.


3) Instruct KY DDS to change door codes at the Louisville office when staff with
knowledge of the codes leaves or no longer has the need to know them.

We agree with this recommendation. In January, 2008, the KY DDS implemented a policy to
change door codes every quarter, or when someone is terminated. During 2008 the Louisville
DDS branch office manager changed the door codes on a regular basis. Most recently the
codes were changed in January 2009. Funding has been requested to have a badge access
system installed on all doors.




                                                E-2
4) Instruct the KY DDS to implement a clean desk policy at the Louisville branch office.

We agree with this recommendation. The KY DDS has implemented a clean desk policy at the
Frankfort and Louisville offices.


5) Instruct KY DDS to test the Frankfort offices IDS semi-annually

We agree with this recommendation. The KY DDS has implemented a policy to have office IDS
equipment tested semi-annually. On January 12, 2009 a representative from the DDS’s security
vendor performed a test of all IDS equipment in the Frankfort office. This will be performed
semi-annually as recommended by OIG.


6) Instruct the KY DDS to keep the Frankfort office’s undistributed keys in a locked
drawer or cabinet.

We agree with this recommendation. The Kentucky DDS has implemented a policy to keep
undistributed keys secure. The Kentucky DDS has organized all of the undistributed keys and
they are now kept in a locked cabinet in the Building Manager’s office. The Building Manager’s
office is locked when it is not occupied.


7) Work with the KY DDS to enhance security controls for the Frankfort office’s
computer room and utility boxes.

We agree with this recommendation. The KY DDS has taken action to secure the Frankfort
computer room and utility boxes. The KY DDS has requested funding for the installation of
motion detectors for the Frankfort computer room. The KY DDS has also contacted the building
owner and the parent agency facilities personnel to inquire about having a chain-link fence
installed around the utility boxes in the mailroom.


8) Instruct the KY DDS to routinely test the Frankfort office’s uninterruptible power
supply (UPS)

We agree with this recommendation. The KY DDS has implemented a policy to routinely test
the Frankfort Office’s UPS. The KY DDS has made arrangements to test the computer room
UPS before the end of the 1st quarter of calendar year 2009. Plans are to perform the test on a
regular basis.


9) Ensure KY DDS establishes a Security Plan, which meets SSA requirement, for the
Frankfort and Louisville offices—this includes developing Risk Assessment Plan’s for
each office’s physical security vulnerabilities.

We agree with this recommendation. The Kentucky DDS Security Officer is reviewing the
current security plan for both Frankfort and Louisville to ensure that the plans meet SSA’s
requirements; the review will be completed before March 31, 2009.




                                                E-3
10) Revise and/or clarify policy regarding DDS responsibility in obtaining prior approvals
and document retention for equipment rentals.
We agree with this recommendation. The Kentucky Disability Program Administrator has
provided policy clarification to the KY DDS. The KY DDS will follow SSA requirements to obtain
prior approvals and retain documents for equipment rentals.
11) Revise and/or clarify policy regarding DDS responsibility in obtaining prior approvals
and document retention for DDS staff travel to NADE conferences.
We agree with this recommendation. The KY DDS follows SSA’s policy for obtaining approval;
however, for the period involved in the audit, they were unable to locate documentation of
approvals. SSA discussed travel policy and document retention with Kentucky. In the future,
Kentucky will retain travel authorization documents according to SSA policy.


12) Establish policy that requires DDSs to review U.S. Department of Health and Human
Services, Office of Inspector General, List of Excluded Individuals/Entities to determine
whether medical consultants have been sanctioned from participating in any Federal or
Federally-assisted programs.
The KY DDS already has this policy in place. A KY DDS employee completes this task every
month.



OTHER MATTER:
Also, we believe KY-DDS should take steps to exclude the SSN from documents it sends
to third parties.

The KY DDS implemented a policy to remove Social Security Numbers from documents sent to
3rd parties in November 2007.




                                              E-4
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1650

   Theresa Roberts, Audit Manager, (205) 801-1619

Acknowledgments

In addition to those named above:

   Hollie Reeves, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-08-18059.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
